               Department of Veterans Affairs
               Office of Inspector General


                 Office of Healthcare Inspections

Report No. 13-01974-337




    Combined Assessment Program 

             Review of the 

    Philadelphia VA Medical Center 

      Philadelphia, Pennsylvania 





September 27, 2013

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                                   CAP Review of the Philadelphia VA Medical Center, Philadelphia, PA



                                              Glossary
                 CAP            Combined Assessment Program
                 CLC            community living center
                 CS             controlled substances
                 EHR            electronic health record
                 EOC            environment of care
                 facility       Philadelphia VA Medical Center
                 FPPE           Focused Professional Practice Evaluation
                 FY             fiscal year
                 HPC            hospice and palliative care
                 IUS            immediate use sterilization
                 MH             mental health
                 MSIT           Multidisciplinary Safety Inspection Team
                 NA             not applicable
                 NC             noncompliant
                 OIG            Office of Inspector General
                 OR             operating room
                 PCCT           Palliative Care Consult Team
                 PSB            Professional Standards Board
                 QM             quality management
                 RME            reusable medical equipment
                 SICU           surgical intensive care unit
                 SPS            Sterile Processing Service
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                             CAP Review of the Philadelphia VA Medical Center, Philadelphia, PA



                                           Table of Contents 

                                                                                                                           Page 

Executive Summary ...................................................................................................            i


Objectives and Scope ................................................................................................            1

  Objectives ...............................................................................................................     1

  Scope......................................................................................................................    1


Reported Accomplishment........................................................................................                  2


Results and Recommendations ................................................................................ 3

  QM .......................................................................................................................... 3

  EOC ........................................................................................................................ 5

  Medication Management – CS Inspections ............................................................. 8

  Coordination of Care – HPC ................................................................................... 9

  Pressure Ulcer Prevention and Management ......................................................... 11

  Nurse Staffing ......................................................................................................... 13


Review Activity with Previous CAP Recommendations ......................................... 14

  Follow-Up on EOC Issues ....................................................................................... 14


Appendixes
  A. Facility Profile ....................................................................................................      15

  B. VHA Patient Satisfaction Survey and Hospital Outcome of Care Measures ......                                               16

  C. VISN Director Comments ..................................................................................                  17

  D. Interim Facility Director Comments ...................................................................                     18

  E. OIG Contact and Staff Acknowledgments .........................................................                            24

  F. Report Distribution .............................................................................................          25

  G. Endnotes ...........................................................................................................       26





VA OIG Office of Healthcare Inspections
                                   CAP Review of the Philadelphia VA Medical Center, Philadelphia, PA



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
June 24, 2013.

Review Results: The review covered six activities and one follow-up review area
from the previous Combined Assessment Program review.                             We made no
recommendations in the following two activities:

   Pressure Ulcer Prevention and Management

   Nurse Staffing

The facility’s reported accomplishment was an improved orthopedic surgery joint
replacement patient flow process, which allows patients to stay on the same unit for
post-surgical care and rehabilitation.

Recommendations: We made recommendations in the following four activities and
follow-up review area:

Quality Management: Consistently initiate Focused Professional Practice Evaluations
for newly hired licensed independent practitioners, and report results to the Professional
Standards Board. Gather data about observation bed use, and perform continued stay
reviews on at least 75 percent of patients in acute beds. Ensure the Critical Care
Committee reviews each cardiopulmonary resuscitation code episode.

Environment of Care: Ensure fire extinguisher signage is in place and operational.
Require all designated hemodialysis employees to receive annual bloodborne
pathogens training. Secure chemicals stored on the hemodialysis unit at all times.
Ensure operating room employees who perform immediate use sterilization receive
annual competency assessments.

Medication Management – Controlled Substances Inspections: Complete monthly
inspections in the inpatient pharmacy, the outpatient pharmacy, and the community
living center vault and for the emergency drug cache.

Coordination of Care – Hospice and Palliative Care: Include a dedicated administrative
support person and psychologist on the Palliative Care Consult Team. Ensure all
non-hospice and palliative care clinical staff who provide care to patients at the end of
their lives receive end-of-life training.

Follow-Up on Environment of Care Issues: Correct the identified environmental hazards
on the locked mental health unit, and ensure all environmental hazards on the locked
mental health units are identified and corrected. Require all staff who work on locked



VA OIG Office of Healthcare Inspections                                                             i
                                   CAP Review of the Philadelphia VA Medical Center, Philadelphia, PA


inpatient mental health units and Multidisciplinary Safety Inspection Team members to
receive annual environmental hazards training.

Comments
The Veterans Integrated Service Network Director and Interim Facility Director agreed
with the Combined Assessment Program review findings and recommendations and
provided acceptable improvement plans. (See Appendixes C and D, pages 17–23, for
the full text of the Directors’ comments.) We consider recommendations 6 and
8 closed. We will follow up on the planned actions for the open recommendations until
they are completed.




                                                            JOHN D. DAIGH, JR., M.D. 

                                                           Assistant Inspector General for 

                                                              Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                            ii
                                   CAP Review of the Philadelphia VA Medical Center, Philadelphia, PA



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	   Conduct recurring evaluations of selected health care facility operations, focusing
        on patient care quality and the EOC.

   	   Provide crime awareness briefings to increase employee understanding of the
        potential for program fraud and the requirement to refer suspected criminal
        activity to the OIG.

Scope
The scope of the CAP review is limited. Serious issues that come to our attention that
are outside the scope will be considered for further review separate from the CAP
process and may be referred accordingly.

For this review, we examined selected clinical and administrative activities to determine
whether facility performance met requirements related to patient care quality and the
EOC. In performing the review, we inspected selected areas, conversed with managers
and employees, and reviewed clinical and administrative records. The review covered
the following six activities and follow-up review area from the previous CAP review:

   	   QM

   	   EOC

   	   Medication Management – CS Inspections

   	   Coordination of Care – HPC

   	   Pressure Ulcer Prevention and Management

   	   Nurse Staffing

   	   Follow-Up on EOC Issues

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2012 and FY 2013 through May 20, 2013,
and was done in accordance with OIG standard operating procedures for CAP reviews.
We also asked the facility to provide the status on the recommendations we



VA OIG Office of Healthcare Inspections                                                            1
                                   CAP Review of the Philadelphia VA Medical Center, Philadelphia, PA


made in our previous CAP report (Combined Assessment Program Review of the
Philadelphia VA Medical Center, Philadelphia, Pennsylvania, Report No. 10-02385-62,
January 13, 2011). We made repeat recommendations in EOC.

During this review, we presented crime awareness briefings for 100 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and
included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
227 responded. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                          Reported Accomplishment 

Orthopedic Surgery Improvements
In FY 2012, 35 percent of the facility’s patients met utilization management criteria for
appropriate level of care. Orthopedic Service patients met criteria 9 percent of the time.
The facility identified that the orthopedic patient flow process was negatively impacting
timely transition of care and appropriate utilization of SICU and acute care beds. The
traditional joint replacement protocol was to admit patients to the SICU post operatively,
transfer them to a medical/surgical bed, and then transfer them to rehabilitation
services, if needed, prior to discharge.

The facility convened an interdisciplinary team to study and revise the orthopedic
patient flow process. The team recommended, and the facility approved, the creation of
a dedicated orthopedic and rehabilitation unit. Patients with uncomplicated joint
replacement surgery are admitted to the unit post operatively and remain there until
discharged. The unit is staffed by physical therapists, social workers, case managers,
and nursing staff, and care is provided to patients through a patient-centered team
approach. SICU and 5 West nursing staff collaborate on the development of training
and education to ensure nursing staff maintain orthopedic competencies. The
improvement in the orthopedic surgical flow process has increased the availability of
SICU and acute care beds in the facility. In FY 2013, these improvements led to a
7-day decrease in the length of stay for joint replacement patients and to achieving an
85 percent success rate for utilization management criteria for the appropriate level of
care.




VA OIG Office of Healthcare Inspections                                                            2
                                           CAP Review of the Philadelphia VA Medical Center, Philadelphia, PA



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility complied with selected
requirements within its QM program.1

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The areas marked as NC needed improvement. Any items that did not apply to this
facility are marked NA.

 NC                   Areas Reviewed                                         Findings
       There was a senior-level committee/group
       responsible for QM/performance
       improvement, and it included the required
       members.
       There was evidence that Inpatient Evaluation
       Center data was discussed by senior
       managers.
       Corrective actions from the protected peer
       review process were reported to the Peer
       Review Committee.
 X     FPPEs for newly hired licensed independent        Fourteen profiles reviewed:
       practitioners complied with selected               Four FPPEs were not initiated.
       requirements.                                      None of the results of the 10 completed
                                                           FPPEs were reported to the PSB.
       Local policy for the use of observation beds
       complied with selected requirements.
 X     Data regarding appropriateness of                  The facility did not gather observation bed
       observation bed use was gathered, and               use data.
       conversions to acute admissions were less
       than 30 percent, or the facility had reassessed
       observation criteria and proper utilization.
 X     Staff performed continuing stay reviews on at     Three quarters of continuing stay data reviewed:
       least 75 percent of patients in acute beds.        For all quarters, less than 75 percent of acute
                                                           inpatients were reviewed.
       Appropriate processes were in place to
       prevent incidents of surgical items being
       retained in a patient following surgery.
 X     The cardiopulmonary resuscitation review          Six months of Critical Care Committee meeting
       policy and processes complied with                minutes reviewed:
       requirements for reviews of episodes of care       There was no evidence that the committee
       where resuscitation was attempted.                   reviewed each code episode.




VA OIG Office of Healthcare Inspections                                                                      3
                                          CAP Review of the Philadelphia VA Medical Center, Philadelphia, PA


 NC             Areas Reviewed (continued)                                  Findings
       There was an EHR quality review committee,
       and the review process complied with
       selected requirements.
       The EHR copy and paste function was
       monitored.
       Appropriate quality control processes were in
       place for non-VA care documents, and the
       documents were scanned into EHRs.
       Use and review of blood/transfusions
       complied with selected requirements.
       CLC minimum data set forms were transmitted
       to the data center with the required frequency.
       Overall, if significant issues were identified,
       actions were taken and evaluated for
       effectiveness.
       There was evidence at the senior leadership
       level that QM, patient safety, and systems
       redesign were integrated.
       Overall, there was evidence that senior
       managers were involved in performance
       improvement over the past 12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

1. We recommended that processes be strengthened to ensure that FPPEs for newly hired
licensed independent practitioners are consistently initiated and that results are reported to the
PSB.

2. We recommended that processes be strengthened to ensure that data about observation
bed use is gathered.

3. We recommended that processes be strengthened to ensure that continued stay reviews
are performed on at least 75 percent of patients in acute beds.

4. We recommended that processes be strengthened to ensure that the Critical Care
Committee reviews each code episode.




VA OIG Office of Healthcare Inspections                                                                   4
                                          CAP Review of the Philadelphia VA Medical Center, Philadelphia, PA


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether selected
requirements in the hemodialysis and SPS areas were met.2

We inspected the inpatient and outpatient hemodialysis units, the medicine and surgery units,
two locked MH units, two intensive care units, two CLC units, the emergency department, two
specialty clinics, and SPS. Additionally, we reviewed relevant documents, conversed with key
employees and managers, and reviewed 28 employee training and competency files
(10 hemodialysis, 8 OR, and 10 SPS). The table below shows the areas reviewed for this topic.
The areas marked as NC needed improvement. Any items that did not apply to this facility are
marked NA.

 NC           Areas Reviewed for General EOC                                Findings
       EOC Committee minutes reflected sufficient
       detail regarding identified deficiencies,
       corrective actions taken, and tracking of
       corrective actions to closure.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
 X     Fire safety requirements were met.                Blue lights were used to identify some fire
                                                          extinguisher locations, but not all were
                                                          illuminated. Other fire extinguishers were not
                                                          visible from normal paths of travel and did not
                                                          have signage identifying their location.
       Environmental safety requirements were met.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
       Sensitive patient information was protected,
       and patient privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
            Areas Reviewed for Hemodialysis
       The facility had policy detailing the cleaning
       and disinfection of hemodialysis equipment
       and environmental surfaces and the
       management of infection prevention
       precautions patients.




VA OIG Office of Healthcare Inspections                                                                     5
                                           CAP Review of the Philadelphia VA Medical Center, Philadelphia, PA


 NC         Areas Reviewed for Hemodialysis                                  Findings
                        (continued)
       Monthly biological water and dialysate testing
       was conducted and included required
       components, and identified problems were
       corrected.
 X     Employees received training on bloodborne           There was no evidence that 9 employees
       pathogens.                                           received bloodborne pathogens training
                                                            within the past 12-month period.
       Employee hand hygiene monitoring was
       conducted, and any needed corrective actions
       were implemented.
 X     Selected EOC/infection prevention/safety            Chemicals were stored in an unlocked
       requirements were met.                               cabinet.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for SPS/RME
       The facility had policies/procedures/guidelines
       for cleaning, disinfecting, and sterilizing RME.
       The facility used an interdisciplinary approach
       to monitor compliance with established RME
       processes, and RME-related activities were
       reported to an executive-level committee.
       The facility had policies/procedures/guidelines
       for IUS (flash) and monitored it.
       Employees received required RME training
       and competency assessment.
 X     OR employees who performed IUS (flash)              Of the 6 OR employees on duty for more than
       received training and competency                     2 years who performed IUS, there was no
       assessment.                                          evidence that two received annual
                                                            competency assessments.
       RME standard operating procedures were
       consistent with manufacturers’ instructions,
       procedures were located where reprocessing
       occurs, and sterilization was performed as
       required.
       Selected infection prevention/environmental
       safety requirements were met.
       Selected requirements for SPS
       decontamination and sterile storage areas
       were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.

Recommendations

5. We recommended that fire extinguisher signage be in place and operational in accordance
with National Fire Protection Association Standards.


VA OIG Office of Healthcare Inspections                                                                    6
                                          CAP Review of the Philadelphia VA Medical Center, Philadelphia, PA


6. We recommended that processes be strengthened to ensure that all designated
hemodialysis employees receive annual bloodborne pathogens training.

7. We recommended that chemicals stored on the hemodialysis unit be secured at all times
and that compliance be monitored.

8. We recommended that processes be strengthened to ensure that OR employees who
perform IUS receive annual competency assessments.




VA OIG Office of Healthcare Inspections                                                                   7
                                          CAP Review of the Philadelphia VA Medical Center, Philadelphia, PA


Medication Management – CS Inspections
The purpose of this review was to determine whether the facility complied with requirements
related to CS security and inspections.3

We reviewed relevant documents and conversed with key employees. We also reviewed the
training files of all CS Coordinators and 10 CS inspectors and inspection documentation from
10 CS areas, the inpatient and outpatient pharmacies, the CLC vault, and the emergency drug
cache. The table below shows the areas reviewed for this topic. The area marked as NC
needed improvement. Any items that did not apply to this facility are marked NA.

 NC                    Areas Reviewed                                       Findings
       Facility policy was consistent with VHA
       requirements.
       VA police conducted annual physical security
       surveys of the pharmacy/pharmacies, and
       any identified deficiencies were corrected.
       Instructions for inspecting automated
       dispensing machines were documented,
       included all required elements, and were
       followed.
       Monthly CS inspection findings summaries
       and quarterly trend reports were provided to
       the facility Director.
       CS Coordinator position description(s) or
       functional statement(s) included duties, and
       CS Coordinator(s) completed required
       certification and were free from conflicts of
       interest.
       CS inspectors were appointed in writing,
       completed required certification and training,
       and were free from conflicts of interest.
       Non-pharmacy areas with CS were inspected
       in accordance with VHA requirements, and
       inspections included all required elements.
 X     Pharmacy CS inspections were conducted in        Documentation of pharmacy CS inspections
       accordance with VHA requirements and             during the past 6 months reviewed:
       included all required elements.                   One required monthly inspection was missed
                                                          in the inpatient pharmacy, the outpatient
                                                          pharmacy, and the CLC vault and for the
                                                          emergency drug cache.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

9. We recommended that processes be strengthened to ensure that monthly inspections are
completed in the inpatient pharmacy, the outpatient pharmacy, and the CLC vault and for the
emergency drug cache and that compliance be monitored.


VA OIG Office of Healthcare Inspections                                                                   8
                                          CAP Review of the Philadelphia VA Medical Center, Philadelphia, PA


Coordination of Care – HPC
The purpose of this review was to determine whether the facility complied with selected
requirements related to HPC, including PCCT, consults, and inpatient services.4

We reviewed relevant documents, 20 EHRs of patients who had PCCT consults (including
10 HPC inpatients), and 25 employee training records (10 HPC staff records and 15 non-HPC
staff records), and we conversed with key employees. The table below shows the areas
reviewed for this topic. The areas marked as NC needed improvement. Any items that did not
apply to this facility are marked NA.

NC                     Areas Reviewed                                         Findings
X      A PCCT was in place and had the dedicated         List of staff assigned to the PCCT reviewed:
       staff required.                                    An administrative support person and
                                                            psychologist had not been dedicated to the
                                                            PCCT.
       The PCCT actively sought patients
       appropriate for HPC.
       The PCCT offered end-of-life training.
X      HPC staff and selected non-HPC staff had           There was no evidence that seven non-HPC
       end-of-life training.                               staff had end-of-life training.
       The facility had a VA liaison with community
       hospice programs.
       The PCCT promoted patient choice of location
       for hospice care.
       The CLC-based hospice program offered
       bereavement services.
       The HPC consult contained the word
       “palliative” or “hospice” in the title.
       HPC consults were submitted through the
       Computerized Patient Record System.
       The PCCT responded to consults within the
       required timeframe and tracked consults that
       had not been acted upon.
       Consult responses were attached to HPC
       consult requests.
       The facility submitted the required electronic
       data for HPC through the VHA Support
       Service Center.
       An interdisciplinary team care plan was
       completed for HPC inpatients within the
       facility’s specified timeframe.
       HPC inpatients were assessed for pain with
       the frequency required by local policy.
       HPC inpatients’ pain was managed according
       to the interventions included in the care plan.
       HPC inpatients were screened for an
       advanced directive upon admission and
       according to local policy.



VA OIG Office of Healthcare Inspections                                                                   9
                                          CAP Review of the Philadelphia VA Medical Center, Philadelphia, PA


 NC            Areas Reviewed (continued)                                   Findings
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

10. We recommended that processes be strengthened to ensure that the PCCT includes a
dedicated administrative support person and a psychologist.

11. We recommended that processes be strengthened to ensure that all non-HPC clinical staff
who provide care to patients at the end of their lives receive end-of-life training.




VA OIG Office of Healthcare Inspections                                                                  10
                                          CAP Review of the Philadelphia VA Medical Center, Philadelphia, PA


Pressure Ulcer Prevention and Management
The purpose of this review was to determine whether acute care clinicians provided
comprehensive pressure ulcer prevention and management.5

We reviewed relevant documents, 20 EHRs of patients with pressure ulcers (10 patients with
hospital-acquired pressure ulcers and 10 patients with community-acquired pressure ulcers),
and 10 employee training records. The table below shows the areas reviewed for this topic.
Any items that did not apply to this facility are marked NA. The facility generally met
requirements. We made no recommendations

 NC                     Areas Reviewed                                      Findings
       The facility had a pressure ulcer prevention
       policy, and it addressed prevention for all
       inpatient areas and for outpatient care.
       The facility had an inter-professional pressure
       ulcer committee, and the membership
       included a certified wound care specialist.
       Pressure ulcer data was analyzed and
       reported to facility executive leadership.
       Complete skin assessments were performed
       within 24 hours of acute care admissions.
       Skin inspections and risk scales were
       performed upon transfer, change in condition,
       and discharge.
       Staff were generally consistent in
       documenting location, stage, risk scale score,
       and date acquired.
       Required activities were performed for
       patients determined to be at risk for pressure
       ulcers and for patients with pressure ulcers.
       Required activities were performed for
       patients determined to not be at risk for
       pressure ulcers.
       For patients at risk for and with pressure
       ulcers, interprofessional treatment plans were
       developed, interventions were recommended,
       and EHR documentation reflected that
       interventions were provided.
       If the patient’s pressure ulcer was not healed
       at discharge, a wound care follow-up plan was
       documented, and the patient was provided
       appropriate dressing supplies.
       The facility defined requirements for patient
       and caregiver pressure ulcer education, and
       education on pressure ulcer prevention and
       development was provided to those at risk for
       and with pressure ulcers and/or their
       caregivers.



VA OIG Office of Healthcare Inspections                                                                  11
                                          CAP Review of the Philadelphia VA Medical Center, Philadelphia, PA


 NC            Areas Reviewed (continued)                                   Findings
       The facility defined requirements for staff
       pressure ulcer education, and acute care staff
       received training on how to administer the
       pressure ulcer risk scale, conduct the
       complete skin assessment, and accurately
       document findings.
 NA    The facility complied with selected fire and
       environmental safety, infection prevention,
       and medication safety and security
       requirements in pressure ulcer patient rooms.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                  12
                                           CAP Review of the Philadelphia VA Medical Center, Philadelphia, PA


Nurse Staffing
The purpose of this review was to determine the extent to which the facility implemented the
staffing methodology for nursing personnel and to evaluate nurse staffing on three inpatient
units (acute medical/surgical, long-term care, and MH).6

We reviewed relevant documents and 25 training files, and we conversed with key employees.
Additionally, we reviewed the actual nursing hours per patient day for acute medical/surgical
unit 5E, CLC unit 2C, and MH unit 7E for 52 randomly selected days (holidays, weekdays, and
weekend days) between October 1, 2012, and March 31, 2013. The table below shows the
areas reviewed for this topic. Any items that did not apply to this facility are marked NA. The
facility generally met requirements. We made no recommendations.

 NC                    Areas Reviewed                                        Findings
       The facility completed the required steps to
       develop a nurse staffing methodology by the
       deadline.
       The unit-based expert panels followed the
       required processes and included all required
       members.
       The facility expert panel followed the required
       processes and included all required members.
       Members of the expert panels completed the
       required training.
       The actual nursing hours per patient day met
       or exceeded the target nursing hours per
       patient day.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                   13
                                          CAP Review of the Philadelphia VA Medical Center, Philadelphia, PA



     Review Activity with Previous CAP Recommendations 

Follow-Up on EOC Issues

As a follow-up to recommendations from our prior CAP review, we reassessed facility
compliance with identification of environmental hazards that represent a threat to suicidal
patients on locked MH units and staff training on those hazards.7

Environmental Safety. VHA requires the reduction of environmental factors that may contribute
to suicide attempts and other self-injurious behaviors on locked inpatient MH units. On one of
two locked inpatient MH units, we found toilet paper holders that were not recessed in the wall
and furniture that had anchor points that could be used for hanging.

Training. VHA requires that all staff that who work on locked inpatient MH units and members of
the MSIT receive training on the environmental hazards that represent a threat to suicidal
patients. There was no evidence that 49 of the 50 staff (98 percent) received annual training on
the environmental hazards that represent a threat to suicidal patients.

Recommendations

12. We recommended that the identified environmental hazards on the locked MH unit be
corrected and that processes be strengthened to ensure that all environmental hazards on the
locked MH units are identified and corrected.

13. We recommended that processes be strengthened to ensure that all staff who work on
locked inpatient MH units and MSIT members receive annual environmental hazards training.




VA OIG Office of Healthcare Inspections                                                                  14
                                          CAP Review of the Philadelphia VA Medical Center, Philadelphia, PA
                                                                                                Appendix A


Facility Profile (Philadelphia/642) FY 2013 through April 2013a
Type of Organization                                                              Secondary
Complexity Level                                                                  1b-High complexity
Affiliated/Non-Affiliated                                                         Affiliated
Total Medical Care Budget in Millions                                             $437.6
Number (through May 2013) of:
    Unique Patients                                                              50,178
    Outpatient Visits                                                            349,069
    Unique Employeesb                                                            1,848
Type and Number of Operating Beds:
    Hospital                                                                     143
    CLC                                                                          240
    MH                                                                           40
Average Daily Census:
    Hospital                                                                     105
    CLC                                                                          99
    MH                                                                           36
Number of Community Based Outpatient Clinics                                      3
Location(s)/Station Number(s)                                                     Marshall Hall/642GA
                                                                                  Willow Grove/642GC
                                                                                  Gloucester/642GD
VISN Number                                                                       4




a
    All data is for FY 2013 through April 2013 except where noted.
b
    Unique employees involved in direct medical care (cost center 8200).


VA OIG Office of Healthcare Inspections                                                                  15
                                       CAP Review of the Philadelphia VA Medical Center, Philadelphia, PA
                                                                                             Appendix B


                          VHA Patient Satisfaction Survey 

VHA has identified patient satisfaction scores as significant indicators of facility
performance. Patients are surveyed monthly. Table 1 below shows facility, VISN, and
VHA overall inpatient and outpatient satisfaction scores for FY 2012.

Table 1

                   Inpatient Scores                                 Outpatient Scores
                       FY 2012                                          FY 2012
                Inpatient       Inpatient       Outpatient       Outpatient       Outpatient       Outpatient
                Score           Score           Score            Score            Score            Score
                Quarters 1–2    Quarters 3–4    Quarter 1        Quarter 2        Quarter 3        Quarter 4
    Facility    55.0            52.3            49.4             54.5             49.7             49.9
    VISN        66.9            65.4            59.5             60.5             59.3             60.8
    VHA         63.9            65.0            55.0             54.7             54.3             55.0



                       Hospital Outcome of Care Measures 

Hospital Outcome of Care Measures show what happened after patients with certain
conditions received hospital care.c Mortality (or death) rates focus on whether patients
died within 30 days of being hospitalized. Readmission rates focus on whether patients
were hospitalized again within 30 days of their discharge. These rates are based on
people who are 65 and older and are “risk-adjusted” to take into account how sick
patients were when they were initially admitted. Table 2 below shows facility and U.S.
national Hospital Outcome of Care Measure rates for patients discharged between
July 1, 2008, and June 30, 2011.d

Table 2

                                Mortality                                      Readmission
               Heart Attack    Heart            Pneumonia       Heart Attack     Heart            Pneumonia
                               Failure                                           Failure
    Facility   15.3            7.4              11.9            21.6             25.7             18.8
    U.S.
    National   15.5            11.6             12.0            19.7             24.7             18.5




c
  A heart attack occurs when blood flow to a section of the heart muscle becomes blocked, and the blood supply is
slowed or stopped. If the blood flow is not restored timely, the heart muscle becomes damaged. Heart failure is a
weakening of the heart’s pumping power. Pneumonia is a serious lung infection that fills the lungs with mucus and
causes difficulty breathing, fever, cough, and fatigue.
d
  Rates were calculated from Medicare data and do not include data on people in Medicare Advantage Plans (such as
health maintenance or preferred provider organizations) or people who do not have Medicare.


VA OIG Office of Healthcare Inspections                                                                         16
                                   CAP Review of the Philadelphia VA Medical Center, Philadelphia, PA
                                                                                         Appendix C
                              VISN Director Comments



               Department of
               Veterans Affairs 	                                   Memorandum


       Date: 	         August 30, 2013

       From: 	         Director, VA Healthcare – VISN 4 (10N4)

       Subject: 	      CAP Review of the Philadelphia VA Medical Center,
                       Philadelphia, PA

       To: 	           Director, Washington, DC, Office of Healthcare Inspections
                       (54DC)

                       Acting Director, Management Review Service (VHA 10AR
                       MRS OIG CAP CBOC)

       I have reviewed the information provided by the Philadelphia VA Medical
       Center and I am submitting it to your office as requested. I concur with all
       responses and target dates.

        If you have any questions or require additional information, please contact
        Barbara Forsha, VISN 4 Quality Management Officer at 412-822-3290.




VA OIG Office of Healthcare Inspections                                                           17
                                   CAP Review of the Philadelphia VA Medical Center, Philadelphia, PA
                                                                                         Appendix D
                      Interim Facility Director Comments



               Department of
               Veterans Affairs                                     Memorandum


       Date:           August 30, 2013

       From:           Interim Director, Philadelphia VA Medical Center (642/00)

       Subject:        CAP Review of the Philadelphia VA Medical Center,
                       Philadelphia, PA

       To:             Director, VA Healthcare – VISN 4 (10N4)

       1. I have reviewed the draft report and concur with the report’s
       recommendations.

       2. Thank you for the opportunity to review the draft report. Attached is
       the complete corrective action plan for the report’s recommendations. If
       you have any questions, please contact Susan M. Blake, RN, Director of
       Quality Management Service, at 215-823-6273.




       Interim Director




VA OIG Office of Healthcare Inspections                                                           18
                                   CAP Review of the Philadelphia VA Medical Center, Philadelphia, PA


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that processes be strengthened to ensure that
FPPEs for newly hired licensed independent practitioners are consistently initiated and
that results are reported to the PSB.

Concur

Target date for completion: December 31, 2013

Facility response: The FPPE for newly hired licensed independent practitioners (LIPs)
had been identified as a high priority initiative by the Chief of Staff (COS). A
newly-published MCM on the FPPE/OPPE process has been signed by the Pentad.
This document describes a uniform requirement to initiate the FPPE process within
90 days of hire and complete it no later than 180 days after hire. Over the past
12 months, compliance with reporting FPPEs for newly hired LIPs to the PSB has
consistently improved. FPPE/OPPE is a standing agenda item of MEC. Effective
immediately the Medical Staff Office (MSO) supervisor will send a list to service chiefs
on a monthly basis of all providers hired in the previous month; this process serves as a
trigger to the service chief to submit FPPE/OPPE information. At the end of each
quarter, the MSO supervisor will audit whether FPPE was received or not received,
non-compliance will be reported to the COS for follow-up.

Recommendation 2. We recommended that processes be strengthened to ensure that
data about observation bed use is gathered.

Concur

Target date for completion: September 30, 2013

Facility response: The use of observation beds on the inpatient units began
April 18, 2013. There were a limited number of Veterans admitted under the
observation status at the time of the OIG/CAP survey. Plans to increase the use of the
observation status will include implementation of a process to appropriately monitor
observation bed usage, analyze the data related to observation usage, and establish a
quarterly report that analyzes the appropriateness of observation bed usage.
Observation bed usage report will be submitted for discussion/oversight to the facility
Quality Council (QC). QC oversight will be reported to the facility Executive Leadership
Operation Council (ELOC).




VA OIG Office of Healthcare Inspections                                                           19
                                   CAP Review of the Philadelphia VA Medical Center, Philadelphia, PA


Recommendation 3. We recommended that processes be strengthened to ensure that
continued stay reviews are performed on at least 75 percent of patients in acute beds.

Concur

Target date for completion: December 31, 2013

Facility response: Due to a resignation, there has been an identified shortage of
Utilization Management (UM) reviewers to meet this measure. The emphasis has been
on meeting the admission reviews. A candidate has been selected to fill this vacancy,
but is not yet on board. An additional UM reviewer position has been approved. The
position is currently posted on USA Jobs.gov. The additional manpower will facilitate
meeting this measure.

Recommendation 4. We recommended that processes be strengthened to ensure that
the Critical Care Committee reviews each code episode.

Concur

Target date for completion: September 30, 2013

Facility response: A sub group of the Critical Care Committee began meeting
July 2, 2013 on a monthly basis to review every code event. Each unique code is
critically reviewed. Any issues identified are trended. The results of these reviews will
be discussed at the Critical Care Committee bi-monthly. Discussions and follow up will
be reflected in both the work group minutes and the Critical Care Committee minutes
with concerns/findings being reported up through the Medical Executive Committee.

Recommendation 5. We recommended that fire extinguisher signage be in place and
operational in accordance with National Fire Protection Association Standards.

Concur

Target date for completion: September 30, 2013

Facility response: The facility Life Safety Specialist, in conjunction with the contracting
company, General Fire; will perform an assessment of all fire extinguishers including
proper illumination in accordance with NFPA 10, Standard for Portable Fire
Extinguishers, current Edition. The assessment of the fire extinguishers will ensure that
in all areas where blue lights are used to identify the fire extinguisher locations, the blue
lights will be illuminated. In all areas where the fire extinguishers are not visible from
normal paths of travel, signage will be posted identifying their location. Compliance will
be reported to the facility Environment of Care Committee.




VA OIG Office of Healthcare Inspections                                                           20
                                   CAP Review of the Philadelphia VA Medical Center, Philadelphia, PA


Recommendation 6. We recommended that processes be strengthened to ensure that
all designated hemodialysis employees receive annual bloodborne pathogens training.

Concur

Target date for completion: Completed

Facility response: 100% of Hemodialysis Nursing staff is now compliant with Blood
Borne pathogen training. The Nurse Manager (NM) will monitor for annual compliance
and report summary findings to the Patient Care Service Operation Committee.

Recommendation 7. We recommended that chemicals stored on the hemodialysis unit
be secured at all times and that compliance be monitored.

Concur

Target date for completion: Completed

Facility response: The Door to the room containing the chemicals is secured and locked
at all times. Nurse Manager (NM) will audit for compliance on unit rounds and report
summary findings to Patient Care Service Operation Committee.

Recommendation 8. We recommended that processes be strengthened to ensure that
OR employees who perform IUS receive annual competency assessments.

Concur

Target date for completion: Completed

Facility response: As of July 8th 2013, ONLY Registered Nurses are deemed competent
to perform Immediate Use Sterilization (IUS). 100% of the OR RNs have been
educated and assessed for competency on the process and procedure for IUS. Moving
forward, competency will be assessed on an initial and annual basis. Updated
completed competencies have been placed in the RNs’ individual folders.

Recommendation 9. We recommended that processes be strengthened to ensure
monthly inspections are completed in the inpatient pharmacy, the outpatient pharmacy,
and the CLC vault and for the emergency drug cache and that compliance be
monitored.

Concur

Target date for completion: September 1, 2013

Facility response: As per VHA Handbook 1108.2, “Inspection of Controlled Substances,”
monthly inspections will include inpatient pharmacy, the outpatient pharmacy, the CLC
vault and the emergency drug cache. Compliance with inspections in these areas will




VA OIG Office of Healthcare Inspections                                                           21
                                   CAP Review of the Philadelphia VA Medical Center, Philadelphia, PA


be monitored by the Controlled Substance Coordinator (CSC) and reported to the MEC
on a quarterly basis.

Recommendation 10. We recommended that processes be strengthened to ensure
that the PCCT includes a dedicated administrative support person and a psychologist.

Concur

Target date for completion: December 31, 2013

Facility response: In an effort to grow and develop the PCCT Program and meet the
requirements as defined in VHA Directive 2008-066, PVAMC will have in place
dedicated staff sufficient to meet Veteran needs as defined in the directive.

Recommendation 11. We recommended that processes be strengthened to ensure
that all non-HPC clinical staff who provide care to patients at the end of their lives
receive end-of-life training.

Concur

Target date for completion: December 31, 2013

Facility response: All non-HPC clinical staff that provides care to patients at the end of
their lives will be assigned the TMS training titled “Leading the Way- VA Palliative Care.”
The Director of HPC will monitor and report compliance to Quality Council annually.

Recommendation 12. We recommended that the identified environmental hazards on
the locked MH unit be corrected and that processes be strengthened to ensure that all
environmental hazards on the locked MH units are identified and corrected.

Concur

Target date for completion: December 31, 2013

Facility response: Many of the findings were corrected immediately upon being
identified during the survey. The toilet paper dispensers, the book racks in the day
rooms, and the hasp on the cabinet were all removed on the day of survey. The book
racks from both day rooms were removed the same day they were cited. The hasp on
the cabinet in the day room was removed the same day it was cited. New furniture for
both dayrooms has been ordered, the purchase order number has been processed, and
we are awaiting shipment. MHEOCC and routine EOC rounds will be continuing
mechanisms to identify environmental issues and recommend corrective actions.
These recommendations will be reported through the Environment of Care Committee.




VA OIG Office of Healthcare Inspections                                                           22
                                   CAP Review of the Philadelphia VA Medical Center, Philadelphia, PA


Recommendation 13. We recommended that processes be strengthened to ensure
that all staff who work on locked inpatient MH units and MSIT members receive annual
environmental hazards training.

Concur

Target date for completion: September 30, 2013

Facility response: All staff who works on locked inpatient MH units and MSIT members
will receive initial and annual environmental hazards training. The evidence of training
will include the presentation title, presentation date, name and title of the presenter, and
full signatures of the attendees. Suicide Prevention Coordinator will monitor compliance
with initial and annual training requirements and will report compliance to Quality
Council bi-annually.




VA OIG Office of Healthcare Inspections                                                           23
                                   CAP Review of the Philadelphia VA Medical Center, Philadelphia, PA
                                                                                         Appendix E

                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Bruce Barnes, Team Leader
Contributors            Lisa Barnes, MSW
                        Gail Bozzelli, RN
                        Myra Conway, RN
                        Katherine Foster, RN
                        Donna Giroux, RN
                        Terry Jillian, PhD
                        Mark Lazarowitz
                        Randall Snow, JD
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Jeff Joppie, BS
                        Victor Rhee, MHS
                        Natalie Sadow, MBA
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                           24
                                   CAP Review of the Philadelphia VA Medical Center, Philadelphia, PA
                                                                                         Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Director, VA Healthcare – VISN 4 (10N4)
Interim Director, Philadelphia VA Medical Center (642/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Robert P. Casey, Jr.; Jeff Chiesa; Robert Menendez; Patrick J. Toomey
U.S. House of Representatives: Robert E. Andrews, Robert Brady, Chaka Fattah,
 Michael G. Fitzpatrick, Jim Gerlach, Frank LoBiondo, Pat Meehan, Jon Runyan,
 Allyson Y. Schwartz, Chris Smith


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                           25
                                           CAP Review of the Philadelphia VA Medical Center, Philadelphia, PA
                                                                                                 Appendix G

                                                  Endnotes

1
    References used for this topic included:
	 VHA Directive 2009-043, Quality Management System, September 11, 2009.
	 VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.
	 VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.
	 VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.
	 VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation
    Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
    Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
	 VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
    (MDS), January 4, 2013.
2
   References used for this topic included:
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2009-004, Use and Reprocessing of Reusable Medical Equipment (RME) in Veterans Health
    Administration Facilities, February 9, 2009.
	 VHA Directive 2009-026, Location, Selection, Installation, Maintenance, and Testing of Emergency Eyewash and
    Shower Equipment, May 13, 2009.
	 VA National Center for Patient Safety, “Look-Alike Hemodialysis Solutions,” Patient Safety Alert 11-09,
    September 12, 2011.
	 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04,
    January 17, 2013.
	 Various requirements of The Joint Commission, the Centers for Disease Control and Prevention, the Occupational
    Safety and Health Administration, the National Fire Protection Association, the American National Standards
    Institute, the Association for the Advancement of Medical Instrumentation, the International Association of
    Healthcare Central Service Materiel Management, and the Association for Professionals in Infection Control and
    Epidemiology.
3
   References used for this topic included:
	 VHA Handbook 1108.01, Controlled Substances (Pharmacy Stock), November 16, 2010. 
	 VHA Handbook 1108.02, Inspection of Controlled Substances, March 31, 2010.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA, “Clarification of Procedures for Reporting Controlled Substance Medication Loss as Found in VHA
    Handbook 1108.01,” Information Letter 10-2011-004, April 12, 2011.
	 VA Handbook 0730, Security and Law Enforcement, August 11, 2000.
	 VA Handbook 0730/2, Security and Law Enforcement, May 27, 2010.
4
   References used for this topic included:
	 VHA Directive 2008-066, Palliative Care Consult Teams (PCCT), October 23, 2008.
	 VHA Directive 2008-056, VHA Consult Policy, September 16, 2008.
	 VHA Handbook 1004.02, Advanced Care Planning and Management of Advance Directives, July 2, 2009.
	 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
	 VHA Directive 2009-053, Pain Management, October 28, 2009.
	 Under Secretary for Health, “Hospice and Palliative Care are Part of the VA Benefits Package for Enrolled
    Veterans in State Veterans Homes,” Information Letter 10-2012-001, January 13, 2012.




VA OIG Office of Healthcare Inspections                                                                        26
                                           CAP Review of the Philadelphia VA Medical Center, Philadelphia, PA



5
    References used for this topic included:
	 VHA Handbook 1180.02, Prevention of Pressure Ulcers, July 1, 2011 (corrected copy).
	 Various requirements of The Joint Commission.
	 Agency for Healthcare Research and Quality Guidelines.
	 National Pressure Ulcer Advisory Panel Guidelines.
	 The New York State Department of Health, et al., Gold STAMP Program Pressure Ulcer Resource Guide,
   November 2012.
6
  The references used for this topic were:
	 VHA Directive 2010-034, Staffing Methodology for VHA Nursing Personnel, July 19, 2010.
	 VHA “Staffing Methodology for Nursing Personnel,” August 30, 2011.
	 Staffing Methodology for Nursing Personnel,” August 30, 2011.
7
  The reference used for this topic was:
	 VA National Center for Patient Safety, Mental Health Environment of Care Checklist (MHEOCC),
   April 11, 2013.




VA OIG Office of Healthcare Inspections                                                                   27
